No. 20-827
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
Petitioner,
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
A.K.A. ABU ZUBAYDAH, ET AL.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amicus Curiae Public Citizen contains 7,207 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).
Executed on August 19, 2021.

WENDY LIU
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

